CERTIFICATE OF WORD COUNT
NO. 20-588
Lyneal Wainwright, Warden,
Petitioner,
v.
Jason S. Sexton,
Respondent.
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the JASON S. SEXTON BRIEF
2755 words, including the parts of the brief that are required or exempted by
Supreme Court Rule 33.1(d).
IN OPPOSITION contains

I declare under penalty of perjury that the foregoing is true and correct.

Lucas DeDeus
December 3, 2020

SCP Tracking: Hessler-6055 Rockside Woods Blvd.-Cover Orange

